rOCKLE

2311 Douglas Street

E-Mail Address:

Legal Briefs

Omaha, Nebraska 68102-1214

contact@cocklelegalbriefs.com

Est. 1923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.corn
No. 19-251
AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,
v.
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS
THE ATTORNEY GENERAL OF CALIFORNIA,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 25th day of September, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF AMICUS CURIAE OF THE NATIONAL
ASSOCIATION OF MANUFACTURERS IN SUPPORT OF PETITIONER in the above entitled case. All parties required to
be served have been served by Priority Mail. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
MARTIN S. KAUFMAN
Counsel of Record
ATLANTIC LEGAL FOUNDATION
500 Mamaroneck Avenue
Suite 320
Harrison, NY 10528
(914) 834-3322
mskaufman@atlanticlegal.org
Counsel for Amicus Curiae

Subscribed and sworn to before me this 25th day of September, 2019.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

atiltoz&--kai&
Notary Public

Affiant

38744

No. 19-251
IN THE

6uprewte Court of t!j 1ntteb6tatet
AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,
v.
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS THE ATTORNEY
GENERAL OF CALIFORNIA,
Respondent.
On Petition for a Writ of Certiorari to the United States Court of Appeals
for the Ninth Circuit
BRIEF AMICUS CURME OF THE
NATIONAL ASSOCIATION OF MANUFACTURERS
IN SUPPORT OF PETITIONER
SERVICE LIST
Derek L. Shaffer
Quinn Emanuel Urquhart & Sullivan, LLP
1300 I Street NW, Suite 900
Washington, DC 20005
derekshaffer@quinnemanuel.com
(202) 538-8000
Counsel for Petitioner
Americans for Prosperity Foundation

Aimee Athena Feinberg
California Department of Justice
1300 I Street
Sacramento, CA 95814
Aimee.Feinberg@doj.ca.gov
(916) 210-6003
Counsel for Respondent Xavier Becerra,
in his official capacity as the Attorney General of California

